Case: 19-2532

Document: 62-1

Page: 1

Date Filed: 12/10/2020

Appendix A
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
______________
No. 19-2532
______________
UNITED STATES OF AMERICA
v.
JAMES HILL,
Appellant
______________
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. No. 2-18-cr-00458-001)
District Judge: Honorable Gerald A. McHugh
______________
Submitted under Third Circuit LAR 34.1(a)
April 15, 2020
______________
Before: AMBRO, JORDAN, and SHWARTZ, Circuit Judges.
______________
JUDGMENT
______________
This cause came to be considered on the record from the United States District
Court for the Eastern District of Pennsylvania and was submitted on April 15, 2020. On
consideration whereof, it is now hereby ORDERED and ADJUDGED that the judgment
of the District Court entered June 28, 2019 is VACATED and REMANDED. All of the
above in accordance with the Opinion of this Court.

1a

Case: 19-2532

Document: 62-1

Page: 2

Date Filed: 12/10/2020

ATTEST:
s/ Patricia S. Dodszuweit
Clerk
Dated: December 10, 2020

2

2a

Case: 19-2532

Document: 59

Page: 1

Date Filed: 05/05/2020

Appendix B
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
______________
No. 19-2532
______________
UNITED STATES OF AMERICA
v.
JAMES HILL,
Appellant
______________
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. No. 2-18-cr-00458-001)
District Judge: Honorable Gerald A. McHugh
______________
Submitted under Third Circuit LAR 34.1(a)
April 15, 2020
______________
Before: AMBRO, JORDAN, and SHWARTZ, Circuit Judges.
(Filed: May 5, 2020)
______________
OPINION
______________



This disposition is not an opinion of the full court and pursuant to I.O.P. 5.7 does
not constitute binding precedent.

3a

Case: 19-2532

Document: 59

Page: 2

Date Filed: 05/05/2020

SHWARTZ, Circuit Judge.
James Hill appeals the order denying his motion to suppress a firearm discovered
when a police officer frisked him. Because the officer had reasonable suspicion to
conduct the frisk, we will affirm.1
I
A
After 1:00 a.m. on a July night, Philadelphia Police Officers Eric Bond and Travis
Terrell patrolled a West Philadelphia block that had a history of drug activity, shootings,
and nonresidents gathering in front of rowhouses. As they drove down the block, they
noticed two men sitting on the steps of a rowhouse, so they stopped to determine if the
men lived there. One of the men, Hill, went up the stairs to the porch and approached the
front door, while the other walked down the sidewalk. Officer Terrell approached the
man on the sidewalk, while Officer Bond approached Hill.
Officer Bond stopped at the bottom of the steps and asked Hill, “what’s going on,
man? Do you live here?” App. 76. As Officer Bond asked the question, Hill tried

1

Hill raises two other issues on appeal. First, he argues that the statute underlying
his conviction exceeds Congress’ powers under the Commerce Clause. Our precedent
forecloses this argument, as he concedes. United States v. Singletary, 268 F.3d 196, 205
(3d Cir. 2001). Second, relying on Rehaif v. United States, 139 S. Ct. 2191 (2019), he
argues that the Government failed to prove that “he knew he belonged to the relevant
category of persons barred from possessing a firearm.” Appellant’s Br. at 27 (quoting
139 S. Ct. at 2200). Because our en banc Court will examine the import of Rehaif in
United States v. Nasir, No. 18-2888 (3d Cir.), we will hold Hill’s Rehaif issue C.A.V.
until Nasir is decided. See Mateo v. Att’y Gen., 870 F.3d 228, 231 n.4 (3d Cir. 2017)
(explaining that “C.A.V.” “is the term we use when we hold an appeal in abeyance
pending the outcome of another proceeding”).
2

4a

Case: 19-2532

Document: 59

Page: 3

Date Filed: 05/05/2020

different keys to open the door, but none worked. Officer Bond began walking up the
stairs and asked: “Is this your house? You sure you live here?” App. 76. Hill responded
that he lived there but kept his body angled away from Officer Bond. Officer Bond then
asked Hill what the house number was. Hill became agitated, turned to face Officer
Bond, and responded, “what you bothering me for? I just got off of work.” App. 77.
Hill’s answers and demeanor led Officer Bond to believe that Hill did not live at
the rowhouse. Officer Bond continued to ask Hill questions and noticed that Hill put his
hands in the front pocket of his sweatshirt. He asked Hill to take his hands out of his
pocket because he knew from his experience that people can carry weapons in their
pockets and shoot from pockets. Hill complied but shortly thereafter returned his hands
to his pocket. Officer Bond asked him again to remove his hands from his pocket. Hill
briefly complied.
When Hill returned his hands to his pocket a third time, Officer Bond suspected
that Hill was carrying a gun. Officer Bond told Hill to take his hands out of his pocket
and to put them up. When Hill did so, Officer Bond reached forward, touched Hill’s
pocket, and immediately felt a gun. Officer Bond shouted “gun,” Officer Terrell
returned, they subdued Hill, and Hill was arrested.
B
Because Hill had a prior felony conviction, a grand jury returned an indictment
charging him with possession of a firearm by a felon, in violation of 18 U.S.C.
§ 922(g)(1). Hill moved to suppress the firearm as the fruit of an unlawful investigatory

3

5a

Case: 19-2532

Document: 59

Page: 4

Date Filed: 05/05/2020

stop. The District Court held an evidentiary hearing at which Officers Bond and Terrell
testified.
The District Court denied the motion. United States v. Hill, No. 18-458, 2019 WL
1236058, at *1 (E.D. Pa. Mar. 11, 2019). It held that Hill was seized when Officer Bond
conducted a protective frisk by touching the front of Hill’s sweatshirt. Id. at *3. It also
held that the frisk did not violate the Fourth Amendment because Officer Bond, whom
the Court found to be credible, id. at *2,2 had a reasonable suspicion that Hill was on the
property unlawfully since (a) Officer Bond “had previously been alerted by
neighbors . . . about problems with individuals not from the block sitting on the steps of
the neighbors’ properties,” (b) “Hill did not know the address, nor did any of his keys
work,” and (c) Hill “was agitated by the officer’s questioning,” id. at *3-4 (citing Terry v.
Ohio, 392 U.S. 1, 30 (1968) (holding a stop-and-frisk does not violate the Fourth
Amendment if justified by reasonable suspicion)). “That reasonable suspicion,” the
Court continued, “supported the protective frisk because Hill’s agitation and repeated
movements toward his pocket made Officer Bond concerned for the safety of himself and
others.” Id. at *4.

2

Hill argues that Officers Bond and Terrell differed on the number of people on
the block when they arrived, with Bond testifying that “multiple groups of people” were
on the street, App. 68, Terrell saying that he only saw the two men and that this
difference “casts a pall over their account of why Hill was confronted,” Appellant’s Br. at
20. In his closing argument at the suppression hearing, Hill did not argue that the
differing testimony made Officer Bond not credible, and the District Court found Officer
Bond’s account credible, Hill, 2019 WL 1236058, at *2. We defer to the Court’s
credibility determination. Ornelas v. United States, 517 U.S. 690, 700 (1996); United
States v. Mallory, 765 F.3d 373, 382 (3d Cir. 2014).
4

6a

Case: 19-2532

Document: 59

Page: 5

Date Filed: 05/05/2020

The case then proceeded to trial, and the jury returned a guilty verdict. Hill
appeals.
II3
The Fourth Amendment prohibits an investigatory stop (a “Terry stop”) and an
accompanying protective frisk absent reasonable suspicion. United States v. Foster, 891
F.3d 93, 104 (3d Cir. 2018). The District Court held, and the parties agree, that a Terry
stop and protective frisk occurred when Officer Bond touched Hill’s sweatshirt pocket.
See United States v. Brown, 765 F.3d 278, 289 (3d Cir. 2014) (holding that a police
encounter “ripened into a Terry stop at the moment [the officer] grabbed [the
defendant’s] waistband”). Thus, we must determine whether Officer Bond, when he
frisked Hill’s pocket, had “a reasonable, articulable suspicion that criminal activity [was]
afoot,” Foster, 891 F.3d at 104 (quoting United States v. Graves, 877 F.3d 494, 498 (3d
Cir. 2017)), and “reason to believe that the suspect may pose a danger to the officers,”
United States v. Lowe, 791 F.3d 424, 430 (3d Cir. 2015).
“We evaluate the totality of the circumstances in considering ‘whether a
reasonable, trained officer standing in [the officer’s] shoes could articulate specific
reasons justifying [the] detention.’” United States v. McCants, 952 F.3d 416, 422 (3d
Cir. 2020) (alterations in original) (quoting Brown, 448 F.3d at 246-47). Factors that

3

When examining a suppression ruling, “[w]e review the District Court’s factual
findings for clear error and its legal conclusions de novo.” United States v. McCants, 952
F.3d 416, 421 (3d Cir. 2020). We review “whether a seizure is supported by reasonable
suspicion” de novo, United States v. Lowe, 791 F.3d 424, 427 (3d Cir. 2015), but “give
due weight to a trial court’s finding that the officer was credible and [the officer’s]
inference was reasonable,” Ornelas, 517 U.S. at 700.
5

7a

Case: 19-2532

Document: 59

Page: 6

Date Filed: 05/05/2020

“indicate suspicious behavior include the suspect’s presence in a high crime area,
presence on a street at a late hour, . . . behavior that conforms to police officers’
specialized knowledge of criminal activity,” United States v. Hester, 910 F.3d 78, 87 (3d
Cir. 2018) (quotation marks, citations, and alterations omitted), “furtive hand
movements[,] and refusal to obey the officers’ orders,” United States v. Moorefield, 111
F.3d 10, 14 (3d Cir. 1997), including a suspect’s refusal to remove his hands from his
pockets despite several requests to do so, e.g., United States v. Mouscardy, 722 F.3d 68,
75-76 (1st Cir. 2013).
Each of those factors is present here: (1) at 1:40 a.m., Hill was in a high-crime
area where neighbors had recently reported that nonresidents had been congregating on
properties; (2) Hill sought to avoid encountering the police by approaching the door to a
house for which he did not have a key to enter and did not know the house number,
showing that he did not live there, see United States v. Robertson, 305 F.3d 164, 167 (3d
Cir. 2002) (instructing that the “totality of the circumstances” includes “common sense
judgments about human behavior”); (3) Hill was evasive as he faced away from Officer
Bond and did not fully answer his questions; and (4) Hill repeatedly returned his hands to
his pockets, despite requests not to do so, suggesting that he may have been armed or in
possession of contraband.4 These facts, taken together, gave Officer Bond reasonable

4

Hill argues that his attitude towards Officer Bond’s questioning and conduct in
repeatedly returning his hands to his pocket, despite requests not to do so, evince only a
refusal to cooperate and cannot justify reasonable suspicion. While “a refusal to
cooperate with the police in a consensual encounter, without more, cannot constitute
reasonable suspicion for a stop,” United States v. Bonner, 363 F.3d 213, 218 (3d Cir.
2004), this is not a case where the investigating officer relied only on a refusal to
6

8a

Case: 19-2532

Document: 59

Page: 7

Date Filed: 05/05/2020

suspicion that Hill did not live at the house and that he was armed. Accordingly, the stop
and protective frisk was justified.
III
For the foregoing reasons, we will affirm the District Court’s order denying Hill’s
motion to suppress and hold the remainder of the appeal C.A.V.

cooperate for his reasonable suspicion. Rather, as discussed above, a number of facts
informed Officer Bond’s suspicion. Moreover, Hill did not simply refuse to answer
questions—he repeatedly refused to comply with requests to keep his hands displayed
and instead appeared to handle something in his pocket, which allowed Officer Bond to
infer, based on his experience, that Hill was in possession of a weapon or contraband.
Mouscardy, 722 F.3d at 75-76.
7

9a

Appendix C
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
______________
No. 19-2532
______________
UNITED STATES OF AMERICA
v.
JAMES HILL,
Appellant
______________
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. No. 2-18-cr-00458-001)
District Judge: Honorable Gerald A. McHugh
______________
Submitted under Third Circuit L.A.R. 34.1(a)
April 15, 2020
______________
Before: AMBRO, JORDAN, and SHWARTZ, Circuit Judges.
(Filed: December 10, 2020)
______________
OPINION
______________



This disposition is not an opinion of the full court and pursuant to I.O.P. 5.7 does
not constitute binding precedent.

10a

SHWARTZ, Circuit Judge.
James Hill appeals his conviction for possession of a firearm by a felon, in
violation of 18 U.S.C. §§ 922(g)(1) and 924(a)(2). Relying on Rehaif v. United States,
he argues that his indictment did not allege, the jury was not instructed, and the evidence
did not prove that “he knew he belonged to the relevant category of persons barred from
possessing a firearm.” 139 S. Ct. 2191, 2200 (2019). Because the Government failed to
adduce evidence that Hill knew he was a felon, and because such a failure constitutes
plain error under United States v. Nasir, No. 18-2888, --- F.3d ---, 2020 WL 7041357, at
*19-21 (3d Cir. Dec. 1, 2020) (en banc), we will vacate the conviction and remand for
retrial.1
I
In July 2018, law enforcement discovered that Hill possessed a firearm. United
States v. Hill, 811 F. App’x 761, 762 (3d Cir. 2020). A grand jury returned an indictment
charging: “JAMES HILL, having been convicted in a court of the Commonwealth of
Pennsylvania of a crime punishable by imprisonment for a term exceeding one year,
knowingly possessed in and affecting interstate commerce a firearm,” in violation of
§ 922(g)(1). App. 24. Hill had previously been convicted of several offenses, including
offenses under Pennsylvania law for possession of a controlled substance with intent to

1

In his appeal, Hill raises both his Rehaif issue and two other issues. We
addressed the other issues in United States v. Hill, 811 F. App’x 761 (3d Cir. 2020), and
held the Rehaif issue C.A.V. pending Nasir.
2

11a

deliver, for which he faced up to five years’ imprisonment, 35 Pa. Stat. §§ 780-113(f)(2),
780-104(1)(ii)(10), and was sentenced to two to four years’ imprisonment.
Before trial, Hill stipulated that “[p]rior to July 8th, 2018, [he] had been convicted
in a court of the Commonwealth of Pennsylvania of a crime punishable by imprisonment
for a term exceeding one year. That is, he had been convicted of a felony within the
meaning of [§ 922(g)(1)].” App. 364-65. The stipulation was read to the jury but no
other evidence was presented regarding Hill’s prior convictions or his knowledge of his
status as a felon.2
The District Court instructed the jury that there were three elements to the offense
charged: (1) Hill had been convicted of a crime punishable by imprisonment of over a
year (a felony), (2) “after that conviction, [he] knowingly possessed a firearm,” and
(3) “his possession was in or affecting interstate or foreign commerce.” App. 553.
Regarding the first element, the Court explained that the parties had stipulated that Hill
had a prior conviction, but that
[the] prior conviction is brought to your attention only because it tends to
establish one of the elements of the crime . . . . So you are not to speculate
about the nature of that conviction, and you may not consider the fact that he
has a prior conviction in deciding whether he was in knowing possession of
the firearm with which he is charged in this case because that is in

2

Besides the stipulation, the Government presented the following evidence: the
testimonies of Officers Bond and Terrell, who discovered Hill with the gun and described
arresting him, the testimony of an agent of the Bureau of Alcohol, Tobacco, Firearms,
and Explosives, who testified regarding the firearm’s manufacturing and distribution
history, and the testimony of an officer with the Philadelphia Police Department’s
Firearms Identification Unit, who testified that the firearm was operable. Hill did not
present any witnesses.
3

12a

dispute . . . . It’s only proof for the fact that he had a previous felony
conviction . . . .
App. 554. The Court then explained that “[t]o establish the second element . . . , the
Government must prove that Mr. Hill possessed the firearm in question . . . . This means
that the defendant possessed the firearm purposely and voluntarily . . . . It also means that
he had to know that the object in question was a firearm.” App. 555-56.
The jury found Hill guilty. The Court sentenced Hill to 70 months’ imprisonment
and three years’ supervised release. Hill appeals his conviction.
II
Three months after Hill’s conviction, and while his case was on direct appeal, the
Supreme Court held in Rehaif that the Government must show that the defendant “knew
he had the relevant status when he possessed [the firearm],” here, status as a felon. 139
S. Ct. at 2194. Based on Rehaif, Hill argues that his conviction must be reversed because
his indictment did not allege, the jury was not instructed, and the evidence did not prove
that he knew he had been convicted of a felony. Because Hill did not object to any of
these things before the District Court, we review for plain error. Nasir, 2020 WL
7041357, at *10. “The plain error standard is met when (1) there is an error; (2) the error
is clear or obvious . . . ; and (3) the error affected the appellant’s substantial rights . . . . A
court may address the error if it seriously affects the fairness, integrity or public

4

13a

reputation of judicial proceedings.” United States v. Bruce, 950 F.3d 173, 175 n.3 (3d
Cir. 2020) (alterations, quotation marks, and citations omitted).3
In Nasir, we held that the Government’s failure to prove that a § 922(g)(1)
defendant knew he was a felon was plain error that required vacatur of the conviction.
2020 WL 7041357, at *21-23. As in Nasir, the Government here, following our preRehaif precedent, put forward no evidence that Hill knew he was a felon prohibited from
possessing a firearm.4 Because this was a trial error, we will vacate and remand for a
new trial.5 Nasir, 2020 WL 7041357, at *23.

3

Hill argues that plain error analysis does not apply because the error here was
“structural,” thus requiring us “to invalidate the conviction.” Reply Br. at 9-10.
However, there is “no structural defect exception” to Federal Rule of Criminal Procedure
52(b); instead, his allegation of a structural defect “is properly considered . . . during the
course of our substantial rights inquiry” of plain error review. United States v. Vazquez,
271 F.3d 93, 103 (3d Cir. 2001) (en banc) (citing Johnson v. United States, 520 U.S. 461,
466 (1997)). Moreover, the errors he alleges are not structural. United States v.
Stevenson, 832 F.3d 412, 426 (3d Cir. 2016) (“[D]efective indictments do not constitute
‘structural’ error.”); Washington v. Recuenco, 548 U.S. 212, 222 (2006) (“Failure to
submit a sentencing factor to the jury, like failure to submit an element to the jury, is not
structural error.”); Neder v. United States, 527 U.S. 1, 15 (1999) (“[T]he omission of an
element [from jury instructions] is an error that is subject to harmless-error analysis.”).
4
While the Government argues that the jury could infer from the stipulation that
Hill knew he was a felon, we rejected that argument in Nasir. 2020 WL 7041357, at *20.
5
While it is unlikely that the indictment, which tracks the language of the statute,
was insufficient or that it would constitute plain error to allow it to stand, see Stevenson,
832 F.3d at 427-28, we need not decide this issue because Nasir requires that we vacate
this conviction based upon the absence of trial evidence upon which a juror could
conclude that Hill knew he was a felon. See 2020 WL 7041357, at *18 (“[O]ur analysis
of Nasir’s claim of plain error [is] confined to the trial record and the evidence the
government actually presented to the jury.”). Indeed, if the trial record provided evidence
from which a reasonable juror could have found that Hill knew he was a felon, vacatur
would not have been required.
5

14a

III
For the foregoing reasons, we will vacate Hill’s conviction and remand for a new
trial.

6

15a

Appendix D
1
2

1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA

3
4
5
6
7

UNITED STATES OF AMERICA
PLAINTIFF

:
CRIMINAL CASE NUMBER
:
:
VERSUS
:
:
JAMES HILL
:
DEFENDANT
:
18-CR-458
______________________________________________________
MARCH 20TH, 2019
COURTROOM 9B
P H I L A D E L P H I A, P A 1 9 1 0 6

8
9
10
11

________________________________________________________
B E F O R E T H E H O N O R A B L E G E R A L D A . M C H U G H, J .
________________________________________________________
JURY TRIAL
DAY 2

12
13
A P P E A R A N C E S:
14

16

J E A N I N E L I N E H A N, E S Q U I R E
ASSISTANT UNITED STATES ATTORNEY
6 1 5 C H E S T N U T S T R E E T, S U I T E 1 2 5 0
P H I L A D E L P H I A, P A
19106

17

COUNSEL FOR THE GOVERNMENT

15

18
19
20
21

S U Z A N N E R . W H I T E, R P R , F C R R , C M
OFFICIAL COURT REPORTER
2609 U. S. COURTHOUSE
601 MARKET STREET
P H I L A D E L P H I A, P A 1 9 1 0 6
(215)627-1882

22
23

P R O C E E D I N G S R E C O R D E D B Y S T E N O T Y P E- C O M P U T E R,
T R A N S C R I P T P R O D U C E D B Y C O M P U T E R- A I D E D T R A N S C R I P T I O N

24
25

16a

66
1

ADDITION TO THE VERDICT SLIP IT WILL BE THAT PORTION OF

2

THE CHARGE THAT I WILL SEND OUT WITH THE JURY, NOT THE

3

E N T I R E C H A R G E.

4

ELEMENTS OF THE OFFENSE CONVENIENT TO THEM AS THEY

5

D E L I B E R A T E.

6
7

JUST THAT PORTION SO THEY WILL HAVE THE

A L L R I G H T.
M R . W I L S O N:

A N D Y O U R H O N O R, P E R H A P S I T ' S

BEST IF WE DO IT WITHOUT THE JURY HERE.

8

(JURY OUT.)

9

M R . W I L S O N:

I DO MAKE A MOTION PURSUANT

10

TO RULE 29 OF THE FEDERAL RULES OF CRIMINAL PROCEDURE

11

THAT THE EVIDENCE IS INSUFFICIENT TO ESTABLISH THAT ANY

12

POSSESSION OF THE FIREARM IN THIS CASE WAS IN OR

13

A F F E C T I N G C O M M E R C E.

14

RULING ON THIS, THEIR DECISION ON THIS, BUT I WOULD NOTE

15

THAT THERE IS NO INDICATION AS TO WHEN THAT FIREARM CAME

16

I N T O P E N N S Y L V A N I A.

17

P O S S E S S E D I N A N Y M E A N S O F I N T E R S T A T E T R A N S P O R T A T I O N.

18

W A S P O S S E S S E D O N T H E S T R E E TS O F P H I L A D E L P H I A A C C O R D I N G

19

T O T H E G O V E R N M E N T' S E V I D E N C E, A N D N O T H I N G F U R T H E R T H A T

20

W O U L D I N D I C A T E T H A T T H E E N T R A N C E I N T O P H I L A D E L P H I A, I N T O

21

PENNSYLVANIA WAS ANYTHING OTHER THAN REMOTE IN TIME.

22

A N D S O O N T H A T B A S I S, I M A K E A M O T I O N T O D I S M I S S A S T H E

23

EVIDENCE BEING INSUFFICIENT AT LEAST ON ONE ELEMENT OF

24

T H E C H A R G E D O F F E N S E.

25

I D O R E C O G N I Z E T H E S U P R E M E C O U R T' S

THERE IS NO INDICATION THAT IT WAS

T H E C O U R T:

17a

U N D E R S T O O D.

AND AS YOU

IT

67
1

CORRECTLY OBSERVED THE SUPREME COURT HAS TAKEN A RATHER

2

BROAD VIEW OF THE ELEMENT OF INTERSTATE COMMERCE AND AS

3

I U N D E R S T A N D T H E E X I S TI N G L A W , T H E G O V E R N M E N T W O U L D H A V E

4

MET ITS BURDEN UNDER RULE 29 BUT YOUR POSITION IS

5

P R E S E R V E D.
A N D T H E N T H E O N L Y O T H E R, S U B J E C T A G A I N T O

6
7

T H E D I S C U S SI O N W E W I L L H A V E B E F O R E T H E J U R Y C O M E S B A C K

8

I N , I ' M N O T S U R E T H A T W E N E E D T O U S E O N O R A B O U T,

9

BECAUSE I DON'T THINK THAT IS REALLY IN DISPUTE HERE.

10

THINK IT WILL CONFUSE THE JURY.

11

NEED TO CHARGE ON MOTIVE HERE.

12

I S A L W A Y S A B A D L Y W O R D E D I N S T R U C T I O N A N Y W A Y.

13

YET FOUND A GOOD WAY TO REWRITE IT.

14

I N C L I N E D T O N O T C H A R G E O N E I T H E R O F T H O S E T W O P O I N T S.
M S . L I N E H A N:

15
16

T H E C O U R T:

18

M R . W I L S O N:

20

I'M NOT REALLY SURE WE
A G A I N, T H A T I N S T R U C T I O N
I HAVE NOT

SO I WOULD BE

NO OBJECTION FROM THE

GOVERNMENT ON THAT.

17

19

I

M R . W I L S O N, D O Y O U A G R E E?
I H A V E N O P R O B L E M W I T H T H A T,

Y O U R H O N O R.
T H E C O U R T:

I AM JUST TRYING TO

21

STREAMLINE IT AND NOT ADD CONFUSION INTO THE

22

D E L I B E R A T I O N, A N D W I T H T H A T , W E W I L L T A K E A B O U T A

23

TEN-MINUTE BREAK AND HEAR BACK FROM THE GOVERNMENT ON

24

I M P L I C I T B I A S A N D M R . W I L S O N, D O Y O U W A N T T O F O R M A L L Y - -

25

WHAT I WILL DO --

18a

Case 2:18-cr-00458-GAM Document 44 Filed 06/28/19 Page 1 of 7
AO 245B (Rev 02/18)

Appendix E

Judgment in a Cnminal Case
Sheet l

UNITED ST ATES DISTRICT COURT
Eastern District of Pennsylvania
)
)

UNITED ST ATES OF AMERICA

v.

JUDGMENT IN A CRIMINAL CASE

FILED ~

JAMES HILL

JUN 2B2019

Case :'Jumber: DPAE2: 18CR00458-001

)
)
)

USM Number: 76821-066
Mark Wilson, Esq.

~TE BAPJ(MAN, Clerk )
By
Dep. Clerk )

THE DEFENDANT:

Defendant's Attorney

--- ---

--

D pleaded guilty to count(s)
D pleaded nolo contendere to count(s)
which was accepted by the court.

li2I was found guilty on count(s)

1

after a plea of not guilty.

- - --------

----------~------

---··----

~---

The defendant 1s adjudicated guilty of these offenses:

Title & Section
18:922(g)(1)

1

6s~~sstQttpf. a·:tirearm by a, convicted ,~lop

The defendant 1s sentenced as provided m pages 2 through
the Sentencing Reform Act of 1984.
D The defendant has been found not guilty on count(s)
D Count(s)

Dis

- -7 - -

of this judgment. The sentence 1s imposed pursuant to

----- --------~----------Dare d1s1Illssed on the motion of the Gmted States.

It 1s ordered that the defendant must notlfy the United States attorney for this district withm 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defenoant must notify the court and United States attorney of matenal clianges m econolillc circumstances.

""3~~Nv' L~~I ~5(\
/V1. t?W' [L V-:, l )c V\I r;u:.. Cevv,... J.r;4
C(I\ ro I y vi

l;t
(1J

o).e, /Yl,L, yCJJ

5. WL.

~>""1

F Lvt

(I\.N-

lA, .5 Po [ ~)

6/27/2019
Date of Impos1t1on of Judgment

-------- - -

-

-~~_A1l~----S1gnature of Judge

skAvl Ccl)

J.-ev v,'c.(,,5

Gerald Austin McHugh, United States District Judge
Name and Title of Judge

- - _{£ 7 /;__1__
Date

19a

----

Case 2:18-cr-00458-GAM Document 44 Filed 06/28/19 Page 2 of 7
AO 245B (Rev 02/18) Judgment in Crimmal Case
Sheet 2
lmpnsonment
Judgment · Page

2

of

DEFENDANT: JAMES HILL
CASE NUMBER: DPAE2: 18CR00458-001

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be 1mpnsoned for a total
term of:

70 months on Count 1. This sentence shall run concurrent to any state sentence imposed for violation of parole. The
defendant shall be given credit for time served while in federal custody

Ill

The court makes the following recommendations to the Bureau of Pnsons:

The defendant shall be designated to a facility close to Philadelphia, PA.

0

The defendant is remanded to the custody of the Cnited States Marshal.

D The defendant shall surrender to the Umted States Marshal for this district:

D at

D a.m.

D p.m.

on

D as notified by the Cruted States Marshal
D The defendant shall surrender for service of sentence at the mst1tut10n designated by the Bureau of Prisons:
D before 2 p.m. on

D as notified by the Umted States Marshal.
D as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this Judgment as follows:

Defendant delivered on
at _ __

to

----- ------

_ _ _ _ _ _ _ _ _ _ _ _ , with a certified copy of this judgment.

20a

7

Case 2:18-cr-00458-GAM Document 44 Filed 06/28/19 Page 3 of 7
AO 245B (Rev 02/18) Judgment m a Criminal Case
Sheet 3 - Supervised Release
Judgment Page ~ of

7

DEFENDANT: JAMES HILL
CASE NC~BER: DPAE2: 18CR00458-001

SUPERVISED RELEASE
Upon release from nnpnsonment, you will be on supervised release for a term of:

3 years on Count 1

MA:SDA TORY CONDITIONS
1.
2.

You must not commit another federal, state or local cnme.
You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test withm 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determmed by the court.
D The above drug testlng condition is suspended, based on the court's determinat10n that you
pose a low risk of future substance abuse (check if appltcable)

4.

D You must make restitution in accordance with 18 U.S.C §§ 3663 and 3663A or any other statute authorizing a sentence of

5.

It!'

You must cooperate in the collection of D;\fA as directed by the probation officer. (check if appltcable)

6.

D

You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency m the location where you
reside, work, are a student, or were conVJcted of a qualifymg offense. (check if appltcable)

7.

D

You must participate man approved program for domestic violence. (check ifapp/tcable)

restitution. (check if app/zcab/e)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

21a

Case 2:18-cr-00458-GAM Document 44 Filed 06/28/19 Page 4 of 7
AO 245B (Rev 02/18) Judgment m a Criminal Case
Sheet 3A Supervised Release
Judgment Page

DEFENDANT: JAMES HILL
CASE NUMBER: DPAE2: 18CR00458-001

STANDARD CO~DITIONS 01<' SUPERVISION
As part of your supervised release, you must comply with the following standard cond1t1ons of superv1s10n. These conditions are imposed
because they establish the basic expectations for your behavior while on supervis10n and identify the rnimmum tools needed by probation
officers to keep illformed, report to the court about, and bring about improvements in your conduct and condition.

2.
3.
4.
5.

6.
7.

8.
9.
l 0.
I 1.
12.
13.

You must report to the probation office m the federal J ud1c1al district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or withm a different time
frame.
After initially reporting to the probation office, you will receive instruct10ns from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authonzed to reside without first gettmg permission from the
court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must hve at a place approved by the probation officer. If you plan to change where you hve or anything about your livmg
arrangements (such as the people you hve with), you must notify the probation officer at least 10 days before the change. Ifnotifyillg
the probat10n officer ill advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to v1s1t you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the condit10ns of your supervision that he or she observes m plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probat10n officer excuses you from
doillg so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibihties ), you must notify the probation officer at least IO days before the change. If notifying the probation officer at least IO
days in advance is not possible due to unanticipated crrcumstances, you must notify the probation officer within 72 hours of
becommg aware of a change or expected change.
You must not communicate or interact with someone you know is engaged ill criminal act1v1ty. If you know someone has been
convicted ofa felony, you must not knowingly communicate or interact with that person without first gettillg the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer wtthm 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causmg bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a Jaw enforcement agency to act as a confidential human source or informant without
frrst gettillg the permission of the court.
If the probation officer determmes that you pose a nsk to another person (illcludmg an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the nsk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A G.S. probation officer has illstructed me on the conditions specified by the court and has provided me wtth a wntten copy of this
judgment containing these conditions. For further illformation regardillg these condit10ns, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.

Defendant's Signature

Date

---- ----------

22a

Case 2:18-cr-00458-GAM Document 44 Filed 06/28/19 Page 5 of 7

AO 245B(Rev 02/18) Judgment in a Criminal Case
Sheet 3D
Supervised Release

Judgment Page

5

of

7

DEFENDANT: JAMES HILL
CASE NUMBER: DPAE2: 18CR00458-001

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall participate in a mental health program for evaluation and/or treatment and abide by the rules of any
such program until satisfactorily discharged.
The defendant shall refrain from the illegal possession and/or use of drugs and shall submit to urinalysis or other forms of
testing to ensure compliance. It is further ordered that the defendant shall participate in drug treatment and abide by the
rules of any such program until satisfactorily discharged.
The defendant shall provide the U.S. Probation Office with full disclosure of his financial records to include yearly income
tax returns upon the request of the U.S Probation Office. The defendant shall cooperate with the probation officer in the
investigation of his financial dealings and shall provide truthful monthly statements of his income.
The defendant is prohibited from incurring any new credit charges or opening additional lines of credit without the approval
of the probation officer. The defendant shall not encumber or liquidate interest in any assets unless he has the express
approval of the Court.

23a

AO 245B (Rev 02/18)

Case 2:18-cr-00458-GAM Document 44 Filed 06/28/19 Page 6 of 7

Judgment m a Crumnal Case
Sheet 5 Crimmal Monetary Penalties

Judgment

6 ___
Page _ _

of

7

DEFENDANT: JAMES HILL
CASE NUMBER: DPAE2: 18CR00458-001

CRIMINAL MONETARY PENALTIES
The defendant must pay the total cnmmal monetary penalties under the schedule of payments on Sheet 6.

$ 0.00

$ 0.00

$ 0.00

$ 100.00

Restitution

Fine

JVT A Assessment*

Assessment

TOTALS

D The determmat1on of restitution is deferred unt1l

. An Amended Judgment m a Criminal Case (AO 245C) will be entered

after such determmation.

D

The defendant must make restitution (mcluding community restitution) to the followmg payees in the amount listed below.
If the defendant makes a part1al payment, each payee shall receive an approximately proport10ned payment, unless specified otherwise in
the pnority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(1), all nonfederal victims must be paid
before the Uruted States is paid.

Name of Payee

Total Loss**

1
___- = - - -...............

TOTALS

-------r

0.00

$

Restitution Ordered

$

Priority or Percentage

==i c - - 1

0.00

D

Rest1tut10n amount ordered pursuant to plea agreement $

D

The defendant must pay interest on restitution and a fme of more than $2,500, unless the restitution or fine 1s paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 C.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delmquency and default, pursuant to 18 C.S.C. § 3612(g).

D

The court determined that the defendant does not have the ab1hty to pay mterest and 1t is ordered that:

D the interest requirement 1s waived for the
D the interest requirement for the

D fine

D fme
D

D restitution.

restitution 1s modified as follows

* Justice for Victims ofTraffickmg Act of 2015, Pub. L. No. 114-22.
** Fmdings for the total amount oflosses are reqmred under Chapters l 09A, 110, l IOA, and 113A of Title 18 for offenses commttted on or
after September 13, 1994, but before April 23, 1996.
24a

Case 2:18-cr-00458-GAM
A0245B (Rev 02/18) JudgmentmaCnmmalCase
Sheet 6
Schedule of Payments

Document 44 Filed 06/28/19 Page 7 of 7
Judginent

7~ of
Page _ _

7

DEFENDANT: JAMES HILL
CASE NUMBER: DPAE2: 18CR00458-001

SCHEDGLE OF PAYMENTS
Havmg assessed the defendant's ab1hty to pay, payment of the total cnmmal monetary penalties 1s due as follows:
A

iZ]

Lump sum payment of$
D
D

100.00

not later than
m accordance with D C,

due lillillediately, balance due

D

D,

D

, or
E, or

D F below; or

B

D

Payment to begm immediately (may be combined with

C

D

Payment m equal

D

D

Payment m equal

______ (eg, weekly, monthly, quarterly) installments of$
over a period of
(e g, months or years), to commence
(e g, 30 or 60 days) after release from Imprisonment to a
term of superv1s1on; or

E

D

(e.g. 30 or 60 days) after release from
Payment dunng the term of supervised release will commence withm
Impnsonment. The court will set the payment plan based on an assessment of the defendant's ability to pay at that time; or

F

D

Special mstructions regarding the payment of criminal monetary penalties:

DC,

DD.or

D F below); or

(e g, weekly, monthly, quarterly) mstallments of $
over a period of
(e g, months or years), to commence
. (e g, 30 or 60 days) after the date of this Judgment; or

Cnless the court has expressly ordered otherwise, 1fthts Judgment imposes imprisonment, payment of cnmmal monetary penalties is due durmg
the period of imprisonment. All cnmmal monetary penalties, except those payments made through the Federal Bureau of Pnsons' Inmate
Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any cnrrunal monetary penalties imposed.

D

Jomt and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Jomt and Several Amount,
and correspondmg payee, if appropriate.

D

The defendant shall pay the cost of prosecution.

D

The defendant shall pay the following court cost(s):

lil'.i

The defendant shall forfeit the defendant's mterest m the following property to the Cmted States:
One (I) Sig Sauer, Model P226, semi· automatic 9mm pistol, beanng senal number U448070; 14 rounds of assorted 9mm
ammunition and any and all related ammurut10n.

Payments shall be applied in the followmg order: (I) assessment, (2) restitution pnncipal, (3) restitution mterest, (4) fine pnnc1pal, (5) fme
mterest, (6) community restitution, (7) NTA assessment, (8) penalties, and (9) costs, mcluding cost of prosecution and court costs.

25a

